          REVIEW OF
CONNECTIONS PROGRAM CONTRACT
  FEDERAL ACQUISITION SERVICE
REPORT NUMBER A050008/T/5/Z06001
        January 20, 2006
                                   REVIEW OF
                         CONNECTIONS PROGRAM CONTRACT
                           FEDERAL ACQUISITION SERVICE
                         REPORT NUMBER A050008/T/5/Z06001

                                 TABLE OF CONTENTS


                                                                             Page
REPORT LETTER                                                                 1

INTRODUCTION                                                                  2

     Background                                                               2

     Objective, Scope and Methodology                                         2

RESULTS OF AUDIT                                                              4

     Brief                                                                    4

     Findings and Recommendations                                             4

             Finding 1 – Contract Line Item Number (CLIN) Verification and
                                                                              4
                         Validity Checking Needs To Be Implemented

             Finding 2 – Excessive Other Direct Costs (ODCs)                  7

             Finding 3 – GSA Use of Contract Category Needs to be Improved    9

             Finding 4 – Project Management Issues                            9

             Finding 5 – Program Office Reviews                               10

     Management’s Response                                                    12

     Internal Controls                                                        12

APPENDICES

     A. Examples of Invalid Contract Line Item Numbers                        13
     B. Examples of Other Direct Costs                                        15
     C. Example of Project Delays                                             16
     D. Management’s Response                                                 17
     E. Report Distribution                                                   20
                                REVIEW OF
                     CONNECTIONS PROGRAM CONTRACT
                       FEDERAL ACQUSITION SERVICE
                     REPORT NUMBER A050008/T/5/Z06001

                                 INTRODUCTION


Background

We initiated this audit based on a request from the Assistant Commissioner for Regional
Services, Federal Technology Service (now part of Federal Acquisition Service). The
review was included in the FY 2005 Annual Audit Plan. Our review focused on regional
utilization of the CONNECTIONS contract with an emphasis on potential issues unique
to the contract vehicle.          The CONNECTIONS contract provides federal
telecommunications equipment, services and solutions. It provides the flexibility for
customers to choose from small equipment purchases to complex integrated solutions.

Awarded in January 2003, CONNECTIONS is an 8-year (three base years and five one-
year options) Government-wide, multiple award, indefinite-quantity contract. The
Contract has three categories of service to choose from: Category 1 is for equipment
and services where the client’s needs are centered on equipment acquisition and the
requirements have been defined; Category 2 provides for support services such as help
desks and operations support; and Category 3 is used to provide solutions where the
specific needs are not defined but the end result is defined.

The CONNECTIONS contract has two means of providing service: self-service and
assisted Agencies are capable of placing orders directly with the CONNECTIONS
contractors through self-service orders. In a self-service order, the client interacts
directly with the contractor and GSA only provides the contract vehicle. On an assisted
service order GSA assumes the role of the designated agency official (DAO) and takes
on all of the associated responsibilities on behalf of an agency. The Government fee
associated with the CONNECTIONS contract is one percent for self-service and
between two and six percent for assisted service. We limited our review to GSA
assisted transactions.

Objectives, Scope and Methodology

The objectives of our review were to answer the following questions: 1) Are appropriate
controls in place to ensure that task orders are properly managed; 2) task orders in
compliance with applicable contract provisions and procurement regulations; and 3) Are
contract line item numbers verified by the regions?




                                          2
To accomplish our objectives:

        •    We used data from CONNECTIONS’ sales reports to identify the audit
             universe and to select regions and transactions to be analyzed;

        •    We used task order reviews performed by the CONNECTIONS program
             office as part of our task order review process;

        •    At the request of FTS, we selected task orders awarded after April 2004, with
             most orders being awarded after August 2004;

        •    We obtained task order documentation from the GSA IT Solutions Shop                             1
                                                                                                                 for
             the task orders selected;

        •    We reviewed 30 task orders valued at $14,256,373 out of a universe of 553
             task orders worth $73,248,338; and,

        •    We conducted site visits to the Great Lakes Region, the Pacific Rim Region,
             the Mid-Atlantic Region and the Heartland Region.


We performed our audit fieldwork from March 2005 through June 2005. The audit was
conducted in accordance with generally accepted Government auditing standards.




1
  IT Solutions Shop (ITSS) is an e-commerce application that provides an automated, convenient and secure means for
federal agencies to order and accept services and commodities from vendor partners.




                                                        3
                                  RESULTS OF AUDIT


Brief

Our review found that problems exist both with procurement processes in general and
with the use of the CONNECTIONS contract.

FTS has made a number of changes in its procurement procedures as the result of the
Office of Inspector General’s reviews of the Client Support Centers (CSCs). Because of
those reviews we feel that the procurement issues are being addressed and do not
require reiteration in this report.

Several problems exist in the use of the contract at the regional level. Problems include
verification of contract line item numbers (CLINs) by the ordering office, selection of the
contract category, use of Other direct costs (ODCs) in task orders, issues dealing with
GSA delegating contract management to the client agency, and using the results of the
Program Office reviews.

These problems can result in the Government paying too much for products and
services because the products and services have not been reviewed to determine
whether they were valid contract items. The use of an incorrect contract category could
affect the level of competition and result in increased ODCs. Client agency task order
management could result in problems with the completion of orders on time and within
specifications. The failure to act on Program Office reviews results in the same issues
being identified on a repetitive basis because regional offices did not take corrective
action.


Findings and Recommendations

Finding 1 – Contract Line Item Number (CLIN) Verification and Validity Checking Needs
To Be Implemented

Our analysis showed that 26 of the 30 orders selected did not have the contract line
item number information verified by the procurement office. The lack of verification can
result in potential problems in determining fair and reasonable pricing. If the pricing
information is not verified then overpricing cannot be detected or corrected; and,
erroneous and other direct costs cannot be properly addressed.

CLIN Verification: A contract line item number uniquely identifies equipment or a
service. Contractors have designated contract line item numbers for each category.
There are 17 contractors; eight contractors in Category 1 (equipment and services), 16
contractors in Category 2 (support service orders), and eight contractors in Category 3
(solutions orders). (Certain contractors offer products/services under multiple CLINs
and categories.)




                                            4
The total contract line item numbers for the 17 contractors as of February 2005 were
1,023,172. For a breakdown by contractor and category see the table below:

                                                 Contract Line Item Numbers
                                             Category     Category     Category
        CONNECTIONS Vendors                     1             2            3       Totals

A&T Systems Inc.                                6,976           64          394       7,434
Century Technologies                            5,183          105          317       5,605
Engineering & Professional Services Inc.       84,257           78      145,203     229,538
Information Systems Support Inc               179,953          216      177,431     357,600
SBC Datacomm                                   95,764           96       95,983     191,843
Verizon Federal Inc.                           39,199          529       28,991      68,719
Government Technologies Inc                    26,921          525                   27,446
Electronic Data Systems Corp                                 1,099          129       1,228
Science Applications International Corp.                       264        5,788       6,052
Booz-Allen Hamilton Inc.                                       156                      156
M. C. Dean                                                     198                      198
Management Applications Inc.                                    27                       27
Mantech Advanced Systems International Inc                      90                       90
Omega Technologies Inc.                                        262                      262
SETA Corp                                                      250                      250
Signal Solutions                                                83                       83
NextiraOne Federal LLC                        126,641                               126,641
Totals                                        564,894        4,042      454,236   1,023,172

The table above lists all the contractors/vendors that offer their services through the
CONNECTIONS contract. Some of the vendors are included in one, two or all three
categories. For example, Information Systems Support Inc. is approved under all three
categories and it has 179,953 contract line item numbers for Category 1, 216 for
Category 2, and 177,431 for Category 3; for a total of 357,600 contract line item
numbers.

When task orders were first awarded, the regional offices did not verify the contract line
item number information. According to the Program Office, the information was
provided by the contractors on their websites in different file formats. We found that
checking the prices without the Quick CLIN checker (web-based application) was a
tedious and time consuming task as it involved scrolling through hundreds of portable
document format (PDF) files that listed materials or labor categories. The Program
Office adopted a proactive approach and developed the Quick CLIN checker to help
with price evaluations. On September 17, 2004 the Program Office shared the Quick
CLIN checker with the regional representatives by affixing it to the CONNECTIONS
website. The advanced version was shared with the regions on March 11, 2005.
Everyone including customers, contractors, and designated agency officials, has access
to the Quick CLIN checker and the advanced version through the CONNECTIONS
website.

The CONNECTIONS website states: “This site was created to assist Designated
Agency Officials (DAOs) in quickly verifying Connections contract pricing…” It also says:
“Use this site to validate the price(s) proposed for products and/or services under
Connections …” In addition, the CONNECTIONS website recommends including



                                              5
additional language in the statement of work to notify contractors of the intentions to use
the site. An example is given. The text reads: "Offerors shall clearly identify all
proposed products/services. All offerings approved under a CONNECTIONS
contract shall be easily verifiable utilizing the CONNECTIONS Quick CLIN
Checker. All other proposed items shall be considered ODCs.”

According to some of the Information Technology Managers, they did not use the Quick
CLIN checker because they did not know about it or it was too difficult to use. In our
opinion, the Quick CLIN checker is easy to use as all it takes is a visit to the webpage
(https://connections.mitretek.org/gsa/), a selection of a category, the contractor’s name,
and the contract line item number. After the information is keyed the results are
displayed. An example follows:




                       (Redacted Pursuant to FOIA Exemption 4)




The advanced version of the Quick CLIN checker provides more information than the
Quick CLIN checker. It allows the users to view information such as description,
specifications, manufacturer, model number, unit price, purchase price, warranty, and
warranty length. The user needs to select the category, the contractor, and one or
multiple fields, and the results are displayed.

Proposed Contract Line Item Numbers Were Invalid: We are particularly concerned
with invalid contract line item numbers. Our review found problems with 17 of the 30
orders we selected. The most common problem we identified was the existence of
invalid contract line item numbers in the proposals. Some contractors included contract
line item numbers not found in the contract and others included the description but not
the contract line item number. This indicates that CONNECTIONS contractors were
identifying line items as being on the contract when they are not. We found that 17
percent of the orders reviewed from the Mid-Atlantic, Great Lakes, Heartland, and
Pacific Rim Regions representing approximately $1,242,476 of a total of $7,172,175
had either invalid or lacked contract line item numbers.

Examples of invalid contract line item numbers include materials and equipment such
as:




                                            6
   •   multi-service CISCO router described as a 3700 series (Redacted Pursuant to
       FOIA Exemption 4) - $7,102

   •   CAT5E, Plenum Rated, Blue & White, 1000' - $37,118

   •   fiber duct identified as a latching duct with adhesive back (Redacted Pursuant to
       FOIA Exemption 4) - $6,092

   •   modular jack (Redacted Pursuant to FOIA Exemption 4) - $7,035

Examples for labor are:
   • systems network engineer on site (Redacted Pursuant to FOIA Exemption 4) -
     $173,376

   •   graphics specialist 2 - $9,380

The CONNECTIONS website reads: “If your search produces no results, then you do
NOT have a valid contract offering”. Contract line items that are invalid are considered
other direct costs (ODCs) and subject to the applicable ODC policies. For more
examples of invalid contract line items see Appendix A.

Finding 2– Excessive Other Direct Costs (ODCs)

Our review found that a number of the task orders we selected had what we believe to
be an excessive level of ODCs. The presence of a significant amount of ODCs could
be indicative of a problem with using the wrong CONNECTIONS category being used or
possibly with the use of the CONNECTIONS contract as the procurement vehicle itself.
According to section H.30 (titled other direct costs) of the CONNECTIONS contract, the
Designated Agency Official (DAO) will establish the maximum allowable amounts of
ODCs in accordance with the following limitations:

   •   Orders placed under equipment and services (Category 1), ODCs in excess of
       $10 million will be referred to the GSA PCO (Procuring Contract Officer) for
       review and approval;

   •   Support service orders (Category 2), ODCs in excess of $15 million will be
       referred to the GSA PCO for review and approval;

   •   Solutions orders (Category 3), ODCs in excess of $30 million will be referred to
       the GSA PCO for review and approval.

Furthermore, the Designated Agency Official determines, using the policies and
methods set forth in FAR Subparts 15.4 and 16.505(b), that the prices for such items
are fair and reasonable.

Besides the CONNECTIONS limitations for each category, the regions can set
additional limitations for ODCs. For example, the Great Lakes Region set $25,000 as
its limitation for other direct costs. Anything above this limit was automatically rejected



                                            7
and not awarded. In our opinion, $25,000 could be considered too stringent, and $10,
$15 or $30 million too high. Our review of 30 task orders found that eight had what we
concluded were an excessive percentage of ODCs. For these eight task orders, the
ODC range was between 41 and 100 percent of the value of the task order. One of the
orders had a category 2 contractor performing a category 1 project involving equipment
installation. On this particular order, all of the equipment (roughly 50% of the order) was
an ODC. Other examples include the following items:

        •      IP Network interface (encoder / decoder) – HMR                  $19,800
        •      PTZ Dome Camera kits w/ housings and mounts - HMR               $13,340
        •      Wireless ethernet router – HMR                                  $12,825
        •      16-channel Intellex DVMS – PMO                                   $9,295

For a more detailed list of ODCs see Appendix B.

The table below gives examples of orders with high levels of ODC’s:

     Per Proposal                       Other Direct Cost                  Order      Percent
Equipment     Labor          Per Proposal Invalid CLINs       Total        Total       ODC

    $ 86,460             -     $ 60,772                 - $     60,772 $    147,232    41%

       5,103             -       146,520      $     5,103     151,623       151,623 100%

-                 180,039        172,963           26,660     199,623       353,002    56%

-                  30,668         31,496            1,642       33,138       62,164    53%

-                 136,559               -         132,982     132,982       136,559    97%

     261,476      305,393               -         278,570     278,570       566,870    49%

      59,658       59,585          5,431           50,244       55,675      124,674    44%

     701,196             -              -         333,810      333,810      701,196    47%

$1,027,434      $ 798,706      $ 417,182      $ 829,013 $ 1,246,195 $ 2,243,323        55%

Inclusion of a large amount of ODCs presents issues both in terms of the
CONNECTIONS contract and procurement in terms of pricing. The need to use a high
level of ODCs could be indicative of a problem in either contract category selection or
with using the CONNECTIONS contract itself. The presence of a high percentage of
ODCs could also result in reduced competition since the wrong category may have
been used. Pricing of the ODC’s is an issue because there was minimal evidence in
the files dealing with the review of ODC pricing.

Finding 3 - GSA Use Of Contract Category Needs To Be Improved




                                             8
The utilization of the proper CONNECTIONS contract category is critical to the
procurement process. Categories were established to give the user the ability to solicit
proposals in a manner tailored to their requirements. The CONNECTIONS contract
was awarded with three distinct categories. Each category covers a specific area of
client agency need. Category 1 is aimed at procurements (primarily equipment and
related installation) where the items needed have been adequately defined by the
Government. Category 2 deals with labor only tasks such as help desks and technical
support. Category 3 is used in situations where the specific needs have not been
defined and the Government needs the vendor to provide the solution based on what
could be described as a performance based requirement.

During the audit we identified 5 of the 30 orders reviewed as being solicited under the
incorrect category. Lack of knowledge and misinterpretation of categories are reasons
for selecting the wrong contract category according to the Information Technology
Managers who manage the task orders for GSA.

As an example, one order we reviewed was solicited under Category 2. It was a task
order for a physical security system consisting of remote surveillance cameras and a
wireless network to link them together. The statement of work required both the
equipment and the installation. Only 1 of 16 Category 2 contractors responded to the
request for proposal. Because Category 2 does not contain any equipment, all of the
hardware on the project was proposed as Other direct costs, which left all the
equipment, as open market items that was not competed. The total ODCs for this task
order were $172,963. According to the CONNECTIONS contract, Category 1 should be
used when the need is centered on equipment acquisition. The order was centered on
equipment acquisition; therefore, it should have been issued as a Category 1 instead of
2. If Category 1 had been selected eight contractors could have submitted a proposal.
As it was, only one Category 2 contractor responded.

The use of the wrong contract category can result in potential problems in determining
fair and reasonable pricing. The Government may not have enough information
available to base pricing determinations on. In one order, the only pricing data came
from a client agency provided estimate. The estimate was prepared based on
information received from the company that ended up being subcontracted to perform
the work. It can result in limited competition, as bidders will not submit a proposal if the
work requested is not in their area of expertise or they might hire subcontractors to do
all the work.

Finding 4 - Project Management Issues

We found that GSA delegated contract management to the client agency on the task
orders reviewed. In one instance we believe the delegation resulted in delays and
substandard work being approved because the client agency did not enforce the task
order specifications for installation of some of the items purchased. Relying on the
client agency to do contract management can increase the project’s cost and GSA’s
liability. Review of CONNECTIONS task orders found that 9 of the 30 orders involved
statements of work that could result in issues found in construction projects. Some of
the construction issues were: cost escalation, delays (if caused by the Government,




                                             9
they may result in claims being filed for increased costs because the contractor may not
be able to perform as planned), subcontractor performance and payment.

An example of delays we identified in a task order can be found in Appendix C. This
task order included equipment and installation required to complete the remote
firehouse project on the Charleston Air Force Base, in South Carolina. This project,
while information technology in nature, involved a significant amount of construction
related work. Non-information technology trades were required to complete the task.
The task required trencher operators, backhoe operators, borer operators, and other
related trades. This project suffered significant delays in completion for reasons directly
related to construction type issues. Another delay was a Government caused delay
resulting from the inability to start the work when planned because the local commander
did not want work started until after the Memorial Day weekend, which was almost two
months after the April 6, 2004 award date. There were no penalties for delays caused
by the contractor or non-performance in the CONNECTIONS contract as there are in
construction contracts. A list of issues occurring during the project is detailed in
Appendix C. Some of the issues are related to inadequate due diligence on the part of
the Government and the contractor in pre-construction evaluation of the site. Others
relate to non-delivery of material, weather and the effect of other contractors on the
project.

Greater definition of roles and responsibilities between GSA and its client agencies
needs to be established early on in construction related projects to protect the
Government’s interests. Inadequate site due diligence, lack of effective oversight during
the project and failure to coordinate other work or contractors could result in project
delays or quality problems.

Finding 5 – Program Office Reviews

The CONNECTIONS Program Office performs reviews of task orders prepared by GSA
for client agencies. The reviews are advisory in nature and are designed to point out
issues to the users and educate them in the use of the CONNECTIONS contract. We
found that many of the problems identified by the Program Office were repetitive in
nature. We also found a lack of response or corrective action to the reviews on the part
of the regions reviewed.        We looked at 30 task orders and found that 24 had
deficiencies identified by the Program Office. The Program Office is located in Fairfax,
Virginia and is comprised of six individuals.

The Program Office adopted a proactive role of reviewing the task orders. They
informed us that they did not keep track of earlier reviews, but the earliest reports go
back to February 27, 2004. The review process evolved over time as changes were
made to FTS’ checklists, funding documentation2, categories, ODCs, and price
proposals. In addition, the Program Office started using and advising the use of the
contract line item checker by September of 2004.


2
 Reviewing the funding documentation comprises checking for appropriateness of purpose, fund year,
and sufficient funding availability.



                                                 10
The Program Office staff has spent a lot of time and effort reviewing task orders and
identifying potential problems. Unfortunately, the information was discussed and
distributed to the Federal Technology Service network side of CONNECTIONS, not the
information technology side. Due to the miscommunication, the proper regional offices
did not always receive the program office reviews and no corrective action was taken.
We found that 23 of the task orders had no corrective action. Only one task order
showed corrections were made.

Some of the deficiencies found by the Program Office were:

   •   “The proposed hourly price for ID Number (Redacted Pursuant to FOIA
       Exemption 4) exceeds the contract cap. The proposed hourly rate is $102.80 per
       hour and the contract price is $90.90 per hour”.

   •   “ID Numbers (Redacted Pursuant to FOIA Exemption 4) are not on the contract”,
       this means that a contractor proposed contract line item numbers that are invalid.

   •   “The Other direct costs are 97 percent,” this particular task order has almost 100
       percent of other direct costs.

   •   “The Region specifies that this is a Category 1 requirement. However, a parts list
       with part numbers and quantities is not provided. Category 1 should be used
       when specific parts and quantities can be identified”. The problem with this task
       order was selecting the wrong category.

In our opinion, the regional offices could improve the award and administration of
CONNECTIONS task orders by using the results of Program Office reviews. Problems
resulting from the use of the wrong category, excessive ODC’s, invalid CLIN’s and
inadequate pricing competition would be reduced.

Recommendations

We recommend that the Acting Commissioner, Federal Acquisition Service;

1. Direct that a point of contact at the regional level for Program Office reviews be
   designated. This person will act as the coordinator and keep track of the reviews
   and related corrective action.




                                           11
2. Have the Program Office implement a training program to;

          a. Emphasize the need to verify the contract line item numbers using the
             CLIN checkers and to document the validation process.
          b. Improve the selection process used in determining which category to use.
             Additionally, the rationale used should be documented in the procurement
             file.
          c. Instruct the regional offices in the use of the Program Office reviews.
          d. Instruct the Information Technology Managers to work on a clear definition
             of the client agency roles and responsibilities and include them in the
             Memorandum of Understanding (MOU). Also, the project manager should
             take a more proactive role monitoring the task orders that include
             construction related work.

 3.   Instruct the Program Office to establish a percentage limit for Other direct costs
      to be used by all regions.

Management’s Response

In a response dated December 14, 2005, the Acting Commissioner of the Federal
Acquisition Service provided management’s response to the draft audit report. The
response stated that they agreed with the IG recommendations and have implemented
additional actions to improve the program. Management said that the close interaction
of the IG team with the CONNECTIONS team enabled them to take some actions as
they were discovered. (See Appendix D for the Assistant Commissioner’s response).

Internal Controls

We assessed the internal controls over the use of the CONNECTIONS contract. We
found that controls in the form of Program Office reviews, CONNECTIONS website
information, and other guidance were in place. We believe the issues noted in the audit
report were the result of CONNECTIONS users not fully utilizing the resources provided
them.




                                          12
                                                                                                  APPENDIX A
                            REVIEW OF CONNECTIONS PROGRAM CONTRACT
                                   FEDERAL ACQUISITION SERVICE
                                 REPORT NUMBER A050008/T/5/Z06001

                        EXAMPLES OF INVALID CONTRACT LINE ITEM NUMBERS

                                                 Per Contractor Proposal
                           Description                                         CLIN Number                 Amount
                             (Note 1)                                            (Note 2)


Systems/Network Engineer On Site                                    NOT PROVIDED BY CONTRACTOR            $173,376.00
CAT5E, Plenum Rated, Blue & White, 1000'                            NOT PROVIDED BY CONTRACTOR              37,117.50
Graphics Specialist 2                                               NOT PROVIDED BY CONTRACTOR               9,380.14
1-PORT MOD JACK IDC 8W8P UTP T568B CAT5E                            NOT PROVIDED BY CONTRACTOR               7,035.00
LATCHING DUCT W/ADHESIVE BACK. (.90"X 1.50") WHITE 6'               NOT PROVIDED BY CONTRACTOR               6,092.00
25-Pair 710 Type Straight Modular Splice Connector                Redacted Pursuant to FOIA Exemption 4     85,331.04
100 pair rack mount DCO protector w/stub out                      Redacted Pursuant to FOIA Exemption 4     34,050.40
Directional bore for Qty 4, 4" duct                               Redacted Pursuant to FOIA Exemption 4     31,574.90
Catalyst 4500 Chassis (6-Slot), fan, no p/s                       Redacted Pursuant to FOIA Exemption 4     20,693.54
Machine trench 12"x48"                                            Redacted Pursuant to FOIA Exemption 4     16,539.25
1000BaseLX/LH GBIC (SMF or MMF)                                   Redacted Pursuant to FOIA Exemption 4     16,488.64
4in Schedule 40 PVC Conduit                                       Redacted Pursuant to FOIA Exemption 4     10,824.00
3700 Series, 4-Slot, Dual FE, Multiservice Router 32F/256D        Redacted Pursuant to FOIA Exemption 4      7,102.04
24-10/100 inline power + 2 GBIC ports: SMI                        Redacted Pursuant to FOIA Exemption 4      6,205.41
24-10/100 inline power + 2 GBIC ports: SMI                        Redacted Pursuant to FOIA Exemption 4      2,068.47
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     86,872.20
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     48,119.85
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     38,953.28
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     37,964.88
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     36,114.00
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     22,612.32
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     21,099.36
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     19,208.80
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     15,322.68
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     14,500.20
       NO DESCRIPTION PROVIDED BY CONTRACTOR                      Redacted Pursuant to FOIA Exemption 4     12,996.00

     Notes:

     1. This is from the product description portion of a contractor’s proposal. Where the
        table shows; “NO DESCRIPTION PROVIDED BY CONTRACTOR” it means that the
        contractor did not provide a description of the product that was being proposed for
        the task order. Our review of these items using the CONNECTIONS contract line
        item checker revealed that they are not valid items despite the existence of a
        contract line item number and the fact that they were identified by the contractor as
        being on contract.
                                                                               APPENDIX A




                                                             13
           EXAMPLES OF INVALID CONTRACT LINE ITEM NUMBERS
                              (Continued)

1.   The data in this column represents contract line item numbers provided by
     contractors in their proposals. Where the table reads “NOT PROVIDED BY
     CONTRACTOR” means that the contractor did not provide a contract line item
     number for the product that was being proposed for the task order. Our review of
     these items using the CONNECTIONS contract line item checker revealed that
     they are not valid items despite the existence of a contract line item number and
     the fact that they were identified by the contractor as being on contract.




                                        14
                                                                   APPENDIX B


          REVIEW OF CONNECTIONS PROGRAM CONTRACT
                 FEDERAL ACQUISITION SERVICE
               REPORT NUMBER A050008/T/5/Z06001

                 EXAMPLES OF OTHER DIRECT COSTS

                DESCRIPTION FROM PROPOSAL                          COST

Antenna/w Erection Kit                                             $116,258
Antenna                                                             104,449
Antenna                                                              88,471
Specialized Equipment Rental, Transport, and Disposal                87,947
IP/VC 3540 MCU Module-100 sessions                                   60,646
Dump Truck, transport, etc.                                          40,455
Rental of back hoe, bobcats, pressers, jack hammers, etc             30,781
IP Network interface (encoder / decoder) - HMR                       19,800
24-10/100 inline power + 2 GBIC ports EMI                            16,967
PTZ Dome Camera kits w/ housings and mounts - HMR                    13,340
Wireless Ethernet router - HMR                                       12,825
Optical Metro 3500 Universal Shelf w VTX Model                       11,781
PTZ Dome Camera kits w/ housings and mounts - Impound Lot            10,005
IP Network interface (encoder / decoder) - Impound Lot                9,900
Incidental Installation Components and/or Consultants                 9,485
16-channel Intellex DVMS - PMO                                        9,295
Perimeter and fill materials                                          8,794
84 DS1 Service Module w/Integrated OC-3 (LC) (working & prot)         8,632
8 Channel Intellex DVMS - HMR                                         8,565
Wireless ethernet router - Impound Lot                                8,550
Landfill/dump fees                                                    7,915
8 Channel Intellex DVMS (includes one network client) - WTF           7,795
Enhanced OMX 4-Ch Band 1 (1528.77nm - 1533.47nm)                      7,706
Manhole 6Wx12Lx7H                                                     7,067
Shipping & Handling                                                   6,890
Wireless trans/recv &12dbi, 5.3 GHz antenna kit - PMO                 6,800
PTZ Dome Camera kits w/housing and mounts -PMO                        6,670
IP Network interface (encoder / decoder) - NE Fence Line              6,600
8X5XNBD SmartNet Subscription, IPVC 3540 MCU module 100 sessions      6,416
Fencing                                                               6,058
Ancillary Equipment                                                   5,816
Wireless Ethernet router - NE Fence Line                              5,700
Lightening Protection Hermes Loop/TCI 540                             5,680
Redundant Power System 675 (RPS 675) with 1 connector cable           4,486
24-10/100 inline power + 2 GBIC ports SMI                             4,320
Loop Array Area Prep                                                  4,102
Catalyst 4500 Supervisor II-Plus (IOS), 2GE,Console (RJ-45)           3,829




                                      15
                                                                                       APPENDIX C


                   REVIEW OF CONNECTIONS PROGRAM CONTRACT
                          FEDERAL ACQUISITION SERVICE
                        REPORT NUMBER A050008/T/5/Z06001

                               EXAMPLE OF PROJECT DELAYS

                                  Task Order GST0504BM1545

          Original Award                                04/06/04
          Original Period of Performance                08/04/04
          Government Delay (See Note 1)                 06/01/04      Memorial Day weekend
          Revised Period of Performance                 09/28/04
          Contractor Delay (See Note 2)                 09/30/04          Cable delivery
          Actual Period of Performance                  11/11/04
          Actual Delay (in days) (See Note 3)              99
          Invoice Date                                  11/11/04
          Client Acceptance                             11/09/04
          GSA Acceptance                                11/22/04

Notes:

1.       This delay was caused by the client agency requesting that work not be
         performed prior to the Memorial Day holiday. The task order period of
         performance had to be adjusted to account for that delay.

2.       This performance delay was caused by the contractor.                    Cable needed to
         complete the project was not delivered when required.

3.       The overall project was completed 99 days after the originally scheduled
         completion date. The table below details some of the issues that affected the
         completion of the project.

              Report Date      Problem Date             Description              Cause

                06/14/04          06/10/04      Poorly marked electric line       site
                                  06/11/04         mislocated gas line            site
                                  06/11/04         Unmarked water line            site
                06/19/04          06/15/04        Unmarked phone cable            site
                06/25/04          06/23/04        Unmarked phone cable            site
                                  06/23/04          Unmarked gas line             site
                                  06/24/04       Non-delivery of manholes      contractor
                07/17/04                           Unmarked cable TV              site
                                                Damage by other contractor       other
                07/23/04          07/19/04         Unmarked water line            site




                                                  16
                                         APPENDIX D

REVIEW OF CONNECTIONS PROGRAM CONTRACT
           FEDERAL ACQUISITION
     REPORT NUMBER A050008/T/5/Z06001

        MANAGEMENT’S RESPONSE




                  17
                                                                           APPENDIX D

                            MANAGEMENT’S RESPONSE
                                  (Continued)


DRAFT REPORT: Review of CONNECTIONS Program Contract – Report Number
A050008/T/5/Z06001

Background:

We would like to outline some significant factors that impacted our efforts as we
undertook the implementation of the CONNECTIONS program. The CONNECTIONS
contract was the first task order driven contract in the Regional Services arena. It
provided competition among multiple industry partners, setting ceiling prices for goods
and services within scope. This environment was new for our office and many of our
customers and industry partners. It created the need for significant process changes
over the pre-CONNECTIONS environment. The mandatory fair consideration of all
contractors in a certain category was a significant operational change. Planning and
implementation of simple methods to check prices against contract ceilings and quickly
modify the contract with new equipment and services were necessary. GSA has learned
a great deal as we have worked through the myriad of issues we faced in this new
environment, and we have ongoing efforts underway to continue to improve our
management of this program.

Comments by recommendation:

In response to the recommendation regarding the education of regions on making
contract category choices, GSA has implemented a second round of Road show visits
to each region with detailed information and discussion. The “CONNECTIONS Desk
Guide” has been updated with such detail and distributed to the regions. This effort
took place from November 2004 to April 2005. The guidance also addressed the
importance and methods for verifying contract line item (CLIN) prices, further explained
the purpose and value of our task order review process, and opened daily dialog with
the regions on proper use of CONNECTIONS. This guidance will improve consistency
in contract interpretation, task order development and proper acquisition documentation.

Regarding the establishment of a point of contact at the regional level for program office
reviews, some regions have already done this. They have shared with us new points of
contact to include in dissemination of our reviews. We will share your findings with all
regions and request new points of contact universally, both with Network Services and
Information Technology. We will still copy the originators of the task order as the direct
education and feedback is proving very useful to them. We are confident that these
actions will place this education in the hands of all those who can help improve the
process.


                                                                           APPENDIX D




                                           18
                             MANAGEMENT’S RESPONSE
                                   (Continued)

We agree with the IG recommendation regarding the establishment of an MOU with
clear definitions of client agency roles and responsibilities. Without such delineation,
there are task order issues which could lead to unexpected and costly GSA liability. We
will distribute this concern, along with key elements to include in such a document, to all
regions.

The IG recommendation regarding the establishment of a percentage limit for ODCs to
be used by all regions is not a simple one but important. In this contract, ODCs are
those items within the scope of the contract but for which there are no CLIN prices.
This can occur for a number of reasons, some acceptable. We will work with our
acquisition experts to form a new ODC guideline including your recommendations.

Thank you again for the opportunity to respond.

Connections Program Office




                                            19
                                                              APPENDIX E


                REVIEW OF CONNECTIONS PROGRAM CONTRACT
                       FEDERAL ACQUISITION SERVICE
                     REPORT NUMBER A050008/T/5/Z06001

                                REPORT DISTRIBUTION

                                                                  Copies

Office of the Commissioner, Federal Acquisition Service (T)         3

Audit Follow Up and Evaluation Branch (BECA)                        1

Assistant Inspector General for Auditing (JA and JAO)               2

Audit Planning Staff (JAN)                                          1

Administration and Data Systems Staff (JAS)                         1

Assistant Inspector General for Investigations (JI)                 1




                                            20
